No. 20-1008

IN THE

Supreme Court of the United States
_______________
STATE FARM LIFE INSURANCE COMPANY,
Petitioner,
v.
MICHAEL G. VOGT,
Respondent.
_______________
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eighth Circuit
_______________

REPLY BRIEF FOR PETITIONER
_______________
THEODORE J. BOUTROUS
KRISTIN A. LINSLEY
GIBSON, DUNN & CRUTCHER LLP
Counsel of Record
GIBSON, DUNN & CRUTCHER LLP
555 Mission Street
333 South Grand Avenue
San Francisco, CA 94105
Los Angeles, CA 90071
KATHERINE C. YARGER
(213) 229-7804
GIBSON, DUNN & CRUTCHER LLP
tboutrous@gibsondunn.com
1801 California Street
Denver, CO 80202
Counsel for Petitioner
March 31, 2021

RULE 29.6 STATEMENT
The Rule 29.6 corporate disclosure statement
included in the petition for a writ of certiorari remains
accurate.

ii
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
REPLY BRIEF FOR PETITIONER ........................... 1
I.

THE CIRCUITS ARE SPLIT AS TO WHETHER AN
INTRACLASS CONFLICT BARS CERTIFICATION ......... 1
A.

Respondent has no compelling answer to
the split outlined by Petitioner ..................... 2

B.

The critical facts remain undisputed ........... 4

C.

Respondent’s preservation argument is
meritless ........................................................ 6

II. RESPONDENT CANNOT AVOID THE CIRCUIT
SPLIT REGARDING FAIL-SAFE CLASSES .................. 6
A.

The circuits have adopted divergent rules
regarding the permissibility and
characteristics of fail-safe classes ................. 7

B.

The undisputed facts show that the
Eighth Circuit affirmed a fail-safe class ...... 8

III. ALTERNATIVELY, THIS COURT SHOULD HOLD
THE PETITION FOR TRANSUNION ......................... 12
CONCLUSION .......................................................... 13

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Mullen v. Treasure Chest Casino, LLC,
186 F.3d 620 (5th Cir. 1999) .................................. 7
In re Rodriguez,
695 F.3d 360 (5th Cir. 2012) .................................. 7
TransUnion LLC v. Ramirez,
No. 20-297 (U.S.) .................................................. 12
Valley Drug Co. v. Geneva Pharm., Inc.,
350 F.3d 1181 (11th Cir. 2003) .............................. 2
Young v. Nationwide Mut. Ins. Co.,
693 F.3d 532 (6th Cir. 2012) ................................ 10

REPLY BRIEF FOR PETITIONER
Respondent does not dispute the importance of
the questions of class-action law presented by State
Farm’s Petition. The Eighth Circuit’s opinion
deepened two circuit conflicts: (1) whether class
certification is proper when some members benefit
from the same conduct that allegedly harms others;
and (2) whether courts may certify a “fail-safe” class
that defines membership by reference to success on
the merits. Respondent’s efforts to minimize both
conflicts fail. As to the first, he insists that in all
circuits an intraclass conflict must be “fundamental”
to preclude certification, while ignoring disagreement
about when such a conflict is fundamental. As to the
second, he concedes the split over whether fail-safe
classes may be certified and fails even to address the
split over what constitutes a fail-safe class. Both
questions are squarely presented on the undisputed
facts of this case and warrant this Court’s review.
I.

THE CIRCUITS ARE SPLIT AS TO WHETHER AN
INTRACLASS CONFLICT BARS CERTIFICATION

Respondent does not seriously contest the welldefined split on when an intraclass conflict bars
certification. Although he insists there is no “split” on
whether
“speculative
harm
precludes
class
certification,” Opp.1, that is not the question
presented. Rather, the question is whether Rule 23
permits “certification where the damages models
offered by the class representative would harm a
substantial number of class members and leave many
class members unable to prove damages as an element
of their claims.” Pet.i.
Nor is there anything speculative about the
intraclass conflict here: It was undisputed that, at the

2
time of trial, Respondent’s damages model
systematically benefited certain members of the class
(short-term policyholders and tobacco users), harmed
others (long-term policyholders and non-tobacco
users), and left hundreds or possibly thousands of
members who suffered the same alleged breach
without any damages at all. Indeed, Respondent
himself
asserts
that
Petitioner
would
be
“retaliat[ing]” against current policyholders if it
adopted his damages model prospectively. Opp.26-27.
This Court should grant review to resolve whether
such an intraclass conflict precludes certification.
A. Respondent has no compelling answer
to the split outlined by Petitioner
Respondent does not dispute that the Fifth,
Seventh, Eleventh, and D.C. Circuits all hold that
class certification is improper where some class
members benefit from, and others are harmed by, the
same alleged conduct. Pet.19-22 (collecting cases);
Opp.22-23. Nor does Respondent dispute that the
First Circuit has adopted the opposite legal rule.
Pet.22. By affirming certification here, the Eighth
Circuit joined the First Circuit on the short side of this
recognized split.
Rather than addressing the question presented
and the split described by Petitioner, Respondent
posits a “universal rule ... that an intraclass conflict
can defeat certification only when it is ‘fundamental.’”
Opp.21 (citation omitted). But the dispositive legal
question is whether there is a fundamental intraclass
conflict where “some [class] members claim to have
been harmed by the same conduct that benefitted
other members of the class.” Valley Drug Co. v.
Geneva Pharm., Inc., 350 F.3d 1181, 1189 (11th Cir.

3
2003). Four circuits hold that there is; two disagree;
and the Third Circuit announced opposite views in
two cases decided weeks apart. Pet.19-23. Those
courts have reached incompatible results on the
propriety of class certification under materially
indistinguishable circumstances.
This is not a case where “there are slightly
divergent interests regarding damages.” Opp.21.
Rather, the interests of some class members were
fundamentally adverse to those of others, because
some benefited from—and others were harmed by—
the very damages model purporting to provide a
remedy. In holding that there were “no class conflicts
‘so substantial as to overbalance the common interests
of the class members as a whole,’” the Eighth Circuit
deepened an entrenched circuit split.
App.18a
(citation omitted).
Respondent also insists that “no circuit has held
that speculative harm based on conjecture about
future conduct requires a district court to deny
certification.” Opp.21. But Respondent does not
dispute that, depending on the model the jury
selected, up to 9% of the class (or 2,102 policies), at the
time of trial, had no net damages. Pet.24. And, as of
2017, the model the jury selected generated higher
cost of insurance rates for at least 20% of the class.
Pet.10. Neither the district court nor the Eighth
Circuit deemed this known, concrete harm
“speculative.”
Nor is it disputed that applying Respondent’s
model to current policyholders going forward would
result in increasing harm over time. Pet.5. This does
not render the fundamental intraclass conflict
“speculative,” as Respondent and the Eighth Circuit
thought, but rather confirms the gravity of the

4
existing and undisputed intraclass conflict and the
resulting prejudice to Petitioner.
B. The critical facts remain undisputed
Despite Respondent’s attempt to confuse the
record below, the essential facts remain undisputed:
(1) Respondent’s damages model resulted in increased
cost of insurance rates over time for many class
members; (2) as a result, a substantial number of
class members suffered no net damages as of the time
of trial; and (3) if Petitioner were to adopt
Respondent’s model going forward, it would harm
some current policyholders—and (according to
Respondent) would constitute “retaliat[ion],” Opp.2627, against those policyholders, see Pet.11-12.
As to the first point, Respondent cannot dispute
that his damages model, for some class members,
produced higher rates than Petitioner actually
charged. Pet.3-4, 10, 23-24. Instead, Respondent
questions whether that crossover affected “at least
‘20% of all class members’” or merely 20% of
“occurrences of monthly deductions in which the
crossover is present.” Opp.7. But as a matter of basic
reasoning, unless those “occurrences” all affected the
same class members, even more than 20% of class
members holding policies as of 2017 were
disadvantaged.
Respondent’s point that many class members “no
longer had their policies by 2017,” Opp.7, sharpens
the intraclass conflict, because it confirms that the
Witt model harmed current policyholders relative to
former policyholders, particularly short-term former
policyholders. And Respondent admits that “Witt did
not use tobacco-distinct mortality rates,” so his model
also harmed non-tobacco users relative to tobacco

5
users. Opp.25 n.13. 1 The consequence—and the
important point here—is that the “occurrences of
monthly deductions in which the cross-over is
present,” Opp.7 (emphasis omitted), increased over
time, Pet.10.
Respondent’s insistence that “[n]o class member
had zero losses,” Opp.6, ignores the 487 policies
(identified by Respondent) and the additional 29
(revealed at trial) that Respondent’s own model
demonstrated had no net damages, see App.66a, 68a.
And the percentage of policies with no net damages
ranged as high as 9%, depending on which of
Respondent’s damages models the jury selected.
Pet.24. Even in the models that yielded fewer policies
with no net damages, Witt still created winners and
losers by, for example, systematically favoring tobacco
over non-tobacco users. This is because, contrary to
common life insurance practice, Witt’s models treat
non-tobacco users and tobacco users alike, contrary to
the expectations of both groups as to how they would
be treated under the Policy.
Finally, Respondent offers the irrelevant point
that Petitioner has not changed its underlying rates
since trial. Opp.26. But there is no dispute that were
Petitioner to calculate its cost of insurance rates
according to the Witt pricing model going forward, as
it may need to do in order to avoid future liability, that
would harm some current policyholders and arguably
contravene the terms of the existing Policy. Indeed,
Respondent’s contention that Petitioner would be
1

Respondent’s observation that he “was a non-tobacco user,”
Opp.25 n.13, adds nothing beyond calling into question his adequacy as a class representative in offering a damages model that
clearly disadvantaged a group of which he is a member.

6
“retaliat[ing]” against its customers if it did so only
confirms that some class members are harmed by the
model.
C. Respondent’s preservation argument is
meritless
Contrary to Respondent’s assertion, Opp.20-21,
the intraclass-conflict question was pressed and
passed upon below.
Petitioner argued that
Respondent’s theory “resulted in severe conflicts of
interest among the class members” where the Witt
“damages model[] result[ed] in a calculation that
purportedly supported damages for [Respondent] but
which would have adverse consequences for other
class members.” CA8 Opening Br.43-44. And
Petitioner identified “an additional conflict” created
by the application of Respondent’s proposed rates to
current policyholders. Id.
The Eighth Circuit addressed both points. It
rejected Petitioner’s first argument that some
members “would have smaller or no damages and face
larger [cost of insurance] charges,” CA8 Opening Br.2,
reasoning that there were “no class conflicts ‘so
substantial as to overbalance the common interests of
the class,’” App.18a (citation omitted).
And it
dismissed Petitioner’s second conflicts argument as
“speculative.” App.16a. Respondent focuses on the
latter holding, but ignores Petitioner’s first argument,
which forms the crux of the split warranting this
Court’s review.
II. RESPONDENT CANNOT AVOID THE CIRCUIT
SPLIT REGARDING FAIL-SAFE CLASSES
The Eighth Circuit affirmed a fail-safe class, deepening a split on the permissibility and characteristics
of such classes. Pet.25-32. To the extent the court

7
thought it was not affirming a fail-safe class, its narrow view that fail-safe classes exist only where class
members are excluded after judgment, itself splits
from other circuits. Respondent’s efforts to minimize
that conflict and confuse the factual record are unavailing.
A. The circuits have adopted divergent
rules regarding the permissibility and
characteristics of fail-safe classes
Although the conflict over fail-safe classes has
been recognized by courts and commentators, Pet.26,
Respondent contends that the Fifth Circuit has
merely declined to adopt “a per se ‘rule against failsafe classes,’” and merely “reject[s] challenges to class
definitions that” employ “merits-related terminology”
while leaving open “‘the possibility that some [class
members] may fail to prevail on their individual
claims,’” Opp.17, 18 (citation omitted).
In fact, the Fifth Circuit has unequivocally “rejected a rule against fail-safe classes,” thus breaking
with other circuits. In re Rodriguez, 695 F.3d 360, 370
(5th Cir. 2012). As the court has described its rule,
where “‘the class is similarly linked by a common complaint, the fact that the class is defined with reference
to an ultimate issue … does not prevent certification.’”
Rodriguez, 695 F.3d at 370 (quoting Mullen v. Treasure Chest Casino, LLC, 186 F.3d 620, 624 n.1 (5th Cir.
1999)).
Now that the Eighth Circuit has deepened this
conflict by actually permitting fail-safe classes, at
least where, in its view, uninjured class members are
excluded before trial, see Pet.30-32, this Court should
grant review to ensure a consistent rule on this fundamental issue of class action procedure.

8
Respondent’s focus on the Eighth Circuit’s prior
rule against fail-safe classes, Opp.13, ignores the fact
that the court’s narrow definition of when a fail-safe
class is created generates another, separate split.
Other courts take a broader view, focusing not on the
timing of when members are defined out, as the
Eighth Circuit did here, but rather on whether membership depends on success on the merits of the underlying claims. Pet.31-32. Here, even if the members holding the 487 policies had been defined out of
the class before the jury’s verdict (and they were not),
because they could not establish damages under Respondent’s model, the exclusion still creates, in the
eyes of other circuits, a quintessential fail-safe class.
Pet.31-32.
B. The undisputed facts show that the
Eighth Circuit affirmed a fail-safe class
Equally unavailing is Respondent’s effort to cast
this recognized split as “factbound.” Opp.14. The undisputed facts confirm the Eighth Circuit approved a
fail-safe class.
It is undisputed that, when Respondent’s original
classwide damages model showed at least 487 members with no injury at the time of certification, the district court’s solution was that uninjured members
“may be excluded from the class.” App.44a.
Petitioner argued at class certification that, if Respondent were to adjust his damages model to account
for other flawed assumptions, even more class members would show no injury. Dkt.206 at 2. The district
court nonetheless certified the class.
The district court then approved a class notice
stating that the class “excludes policy owners who did

9
not suffer any harm.” Pet.29. The notice neither identified specific class members, nor informed class members how to determine if they “did not suffer any
harm.”2
Finally, before trial, Respondent offered four alternative damages models developed by his expert to
account for various contested factual assumptions.
Pet.8-9, 15; App.24a-26a. Each showed a different
number of uninjured class members. Not until after
trial did the district court exclude the 487 uninjured
members by amending the judgment. App.55a-56a.
Until that occurred, these individuals were class
members. And although Respondent misleadingly
suggests otherwise, Opp.9 (citing App.68a), the district court confirmed in its order denying decertification, before amending the judgment, that the “487 policy owners were technically included in the class certification definition.” App.68a. There was no “exclusion of 487 policyowners from the class at the outset.”
Opp.12.
None of Respondent’s various other assertions, offered in a transparent effort to create fact issues, provides a reason not to grant certiorari.
Respondent first misrepresents why the 487 individuals were excluded. Contrary to his claim that
“they ‘did not share the claim’ that [Petitioner’s]
charges were improper,” Opp.14, his position below,
as reflected in the district court’s order, was that Petitioner’s alleged breach “result[ed] from the uniform
application of the Policy’s terms,” such that “[a]ll policy owners are subject to the same set of COI rates,
2

That Petitioner, having lost its class-certification challenge,
proposed this language to protect against liability to uninjured
class members, see Opp.5, does not defeat its fail-safe argument.

10
and all COI rates are calculated using the same undisclosed factors.” App.39a. Under this theory, every
policyholder subject to the Form 94030 COI provision
shared the same claim.3
Unlike in other cases, the 487 excluded members
were not different because they, for example, held a
different policy. See Young v. Nationwide Mut. Ins.
Co., 693 F.3d 532, 539 (6th Cir. 2012). In such a circumstance, there would be no risk that some could
pursue the same claim using a different damages
model. Rather, they were excluded because they had
no damages under Respondent’s model. App.43a
(“[A]ccording to [Respondent’s] expert, 487 [policyholders] were not injured by the COI rates that [Petitioner] charged.”). That is the heart of the fail-safe
problem: Because these individuals are not bound by
the judgment, they may bring the same claim under a
different damages model, thus subjecting Petitioner to
multiple attempts at recovery.
Respondent suggests that other policyholders
would not have been excluded from the class but rather from any damages award if the jury had found
that they were uninjured. Opp.15-16. But the courtapproved class notice simply stated that “policy owners who did not suffer any harm” would be excluded,
Dkt.237-1, without specifying how anyone would
know that they were excluded. This notice followed

3

Some members of this group indisputably paid the alleged
charges and thus “share the claim[s]” of Respondent. Opp.14.
Some cashed their policies out within a year but had monthly
COI charges deducted while the policies were in effect; while others had their policies lapse for insufficient value in part because
of the COI charges. Others, as Respondent acknowledged, were
male infants who paid COI charges, Dkt.376 at 5 n.4.

11
the certification order, which stated that class members with no damages would “be excluded from the
class.” App.44a. And any uncertainty surrounding
the timing and scope of exclusion only compounds the
unfairness of permitting some class members to escape the binding effect of the judgment.4
Finally, Respondent is incorrect that Petitioner
“misstate[d]” that “it was ‘impossible’ for the 487 policyowners to have been identified before trial.”
Opp.16. Petitioner correctly noted that the exact
number of uninjured members who would be excluded
under the district court’s directive could not have been
known until the jury selected from among Respondent’s alternative damages models—each of which
showed a different number. Pet.30. And although Respondent identified the 487 at class certification, that
group was subject to change at any time up until the
jury’s verdict.
Despite Respondent’s attempt to confuse the factual record, class members were excluded because
they did not suffer damages under the model the jury
selected. Up to 1,615 additional policies (beyond the
487 previously identified, for a sum of 2,102) could
have been excluded from the class under at least one
of Petitioner’s models. Pet.24. And the final scope of
the class was determined only after trial when the district court amended the judgment to change the class
definition. This combination of linking class membership to a member’s ability to prove the claim on the
merits, and the unfairness of not determining class

4

The fact that 29 additional uninjured class members were
not excluded from the judgment, Pet.30 n.3, does not solve the
fail-safe problem as to the others.

12
membership until after judgment, squarely presents
the certworthy issue of the permissibility of fail-safe
classes.
III. ALTERNATIVELY, THIS COURT SHOULD HOLD
THE PETITION FOR TRANSUNION
TransUnion LLC v. Ramirez, No. 20-297 bears
directly on the question presented—whether Rule 23
allows class certification where the proposed class
includes a substantial number of members who are
either harmed by, or unable to prove their claims
under, the class representative’s damages models.
Pet.i. If the Court concludes that Rule 23 does not
permit classes to include uninjured members, that
would make certification improper here, where the
class included members who had no damages.
TransUnion argues that Rule 23 “demands that a
class representative’s injuries—not just her claims
and legal theories—be typical of those of the rest of
the class,” and that “[a]llowing a class to be
represented by someone ‘whose substantial interests
are not necessarily or even probably the same as those
whom he is deemed to represent does not afford [the]
protection to absent parties which due process
requires.” Petitioner’s Br.44-45, TransUnion (No. 20297) (alterations and citation omitted).
These mismatch arguments echo Petitioner’s.
And the mismatch is worse here, where Respondent’s
interests conflict with those of members who
benefitted from the challenged conduct or are unable
to prove damages under his model.
The Court should, at a minimum, hold this
Petition pending TransUnion.

13
CONCLUSION
The petition for a writ of certiorari should be
granted or, in the alternative, held for TransUnion.
Respectfully submitted,
KRISTIN A. LINSLEY
GIBSON, DUNN & CRUTCHER LLP
555 Mission Street
San Francisco, CA 94105
KATHERINE C. YARGER
GIBSON, DUNN & CRUTCHER LLP
1801 California Street
Denver, CO 80202

THEODORE J. BOUTROUS
Counsel of Record
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7804
tboutrous@gibsondunn.com

Counsel for Petitioner
March 31, 2021

